.*• .

No.:

IN THE
SUPREME COURT OF THE UNITED STATES

Sergio Bahena-Petitioner;
V.
The People of the
State of Illinois-Respondent;

ON PETITION FOR WRIT OF CERTIORARI TO
UNITED STATES SUPREME COURT

APPENDIX OF PETITIONER

Sergio Bahena
Petitioner, pro-se

Doc#y-2&rio
*

/< UlMCb

2020 IL App (1st) 180197
No. 1-18-0197
Opinion filed March 31,2020
FOURTH DIVISION
IN THE
APPELLATE COURT OF ILLINOIS
FIRST DISTRICT

THE PEOPLE OF THE STATE OF
ILLINOIS,
Plaintiff-Appellee,
v.
SERGIO BAHENA,
Defendant-Appellant.

)
)
)
)
)

Appeal from the Circuit Court
of Cook County.

)

No. 13 CR 22029

)
)
)
)

The Honorable
Erica L. Reddick,
Judge, presiding.

PRESIDING JUSTICE GORDON delivered the judgment of the court, with opinion.
Justice Reyes concurred in the judgment and opinion.
Justice Lampkin specially concurred, with opinion.
OPINION

1ft

After a bench trial, defendant Sergio Bahena, age 20, was convicted of the attempted
first degree murder of Ruben Saldivar on March 9, 2013. On January 2, 2018, defendant was
sentenced to 31 years with the Illinois Department of Corrections (IDOC).

If 2

On appeal, defendant claims that the trial court erred by denying his pretrial motions
(1) to suppress a photo array and a physical lineup as unduly suggestive and (2) to quash his
arrest and suppress evidence because he was arrested based on an investigative alert and
without a warrant.

'No. 1-18-0197
For the following reasons, we affirm.

13
14

BACKGROUND

15

The State’s evidence at trial established that, on March 9, 2013, at 10:15 p.m., the
victim drove to a liquor store in a van with Jaime Cruz and another man. While Cruz was in
the store purchasing liquor, the shooter walked up to the front passenger side of the van and
fired four or five shots at the victim, who was sitting in the driver’s seat. Although shot, the
victim managed to drive away. Later, the victim was taken to a hospital, and eventually two
bullets were removed from his body, while one bullet remains near his spine. At the hospital,
he spoke to detectives and provided a description of the shooter as a Latino, dark skinned,
between 290 and 300 pounds, and six feet, one or two inches tall. Defendant is five feet, seven
inches tall and 210 pounds.
Detective Terry Teahan was assigned to the case, and he created a photo array with six

16

photos, but the victim was unable to identify the shooter from this array. Defendant’s photo
was not in this first photo array, which the victim viewed on March 27, 2013.
17

•

The police obtained a surveillance video from the liquor store that depicted the area in
front of the liquor store at the time of the shooting. In the video, the liquor store is on the left,
the sidewalk is in the center, and the victim’s van is on the right, with the front-passenger side
next to the sidewalk. The video depicts the shooter walking on the sidewalk, with his back to
the camera, and stopping and facing the front passenger side of the van. As a result of the
lighting, it is difficult to discern the gun or the shooting itself, although it is possible to discern
flashes. The video then shows the van driving away and the shooter turning and running away.
When the shooter turns, he is facing in the direction of the camera. From this video, Detective

2

No. 1-18-0197
Teahan obtained a still photo of the shooter, which the detective used to create a criminal alert
bulletin.

1*

Sergeant Juan Perez recognized defendant from the bulletin, based on his prior contacts
with defendant, and informed Detective Teahan on October 30, 2013. Detective Teahan used
this information to obtain a file photo of defendant and create a second photo array with five
photos. On November 4, 2013, eight months after the shooting, the victim identified defendant
from the second photo array as the shooter. Based on this identification, Detective Teahan
prepared an investigative alert.

19

After learning of the investigative alert, Sergeant Perez and his partner proceeded to
defendant’s home at 5 p.m. on November 5, 2013, knocked on the front door, and asked to
speak with defendant. When defendant came to the door, Sergeant Perez asked him to step
outside to the porch, and the sergeant placed defendant in custody. After his arrest, defendant
made several oral statements on November 5, 2013, to the police in which he denied being the
shooter. Detective Teahan showed defendant a still photo of the shooter from the video, which
was taken immediately after the shooter shot into the van and was cut to omit the van and the
liquor store. Detective Teahan told defendant that the photo was taken in the area of the
shooting, and defendant replied: “okay, that’s me, that’s me in the picture, but that’s just me
in the area. I’m not the shooter.”

If 10

On November 5, 2013, six hours after defendant’s arrest, a physical lineup was
conducted, and the victim identified defendant as the shooter.

If 11

On November 6, 2013, defendant admitted to being the shooter, his oral statement was
reduced to a typewritten statement by an assistant state’s attorney, and defendant signed it.
Defendant does not allege that this statement was involuntary.
3

No. 1-18-0197
1112

In the typed statement, defendant states that, on the night of March 9, 2013, he was a
passenger in a vehicle with three friends, whom he declined to identify, but who were all
“Maniac Latin Disciples or MLD’s.” As they were driving, they observed the victim’s van
parked in front of the liquor store, and one of defendant’s friends stated that the van belonged
to a member of the Saints, who were “in a fight” with the MLDs. The driver of defendant’s
vehicle stopped the vehicle; “one of the guys” told defendant that he “needed to go shoot up
the Saints”; and “one of the guys” handed him a black, semiautomatic handgun. Defendant
exited the vehicle, walked up to the van, and observed a person in the back of the van and
another in the driver’s seat. While standing in front of the front passenger door, defendant fired
four to six shots into the van, at the driver. When defendant returned to his friend’s vehicle, he
handed the gun back to the person who had given it to him, and the driver drove away.
Defendant stated that he did not know the van’s driver whom he shot and that he had not
observed the van or the driver prior to the night of the shooting.

f 13

Prior to trial, defendant filed two suppression motions that are the subject of this appeal.
Defendant moved to quash his arrest and suppress evidence obtained as the fruit of the arrest,
on the ground that the police arrested him based solely on an investigative alert, without an
arrest or search warrant. Defendant also moved to suppress the second photo array and the
lineup as unduly suggestive. After an evidentiary hearing, the trial court denied both motions,
and the case proceeded to a bench trial.

If 14

At the bench trial, the State’s witnesses testified substantially to the facts already
summarized above. Defendant called Dr. Geoffrey Loftus, a psychologist whom the parties
stipulated was an expert in “the field of memory and eyewitness identification,” who testified
regarding the dangers of relying on eyewitness identification. Defendant’s brother, Alberto

4

No. 1-18-0197
Bahena, age 21, testified that defendant was right-handed. The victim had testified on direct
examination that he did not know in what hand the shooter held the gun but then admitted on
cross-examination that he had previously told the police that the shooter held the gun in his left
hand.
H 15

The parties stipulated that, if Officer Raul Rosales was called to testify, he would testify
that, on March 9, 2013, Jaime Cruz told him that the shooter was a “a heavyset” Latino who
approached the van from the passenger’s side and shouted “ ‘what’s up motherf***’ ” before
firing five or six shots into the van. Officer Ludwig,1 if called to testify, would testify that, on
March 9, 2013, he spoke with the victim at the hospital and that the victim told him that the
shooter walked toward the van “holding a handgun in his left hand”; that the shooter stared at
him and then fired three times; that the shooter walked up to the passenger’s side door and
fired two times; that he (the victim) tried to drive away but the van was in neutral; that he was
able to put the vehicle into drive and drive away; that, as he was driving away, he heard two
more shots; and that the shooter was “a male Hispanic, 30 to 32 years old, 290 to 300 pounds,
6’-l to 6’-2 feet tall, wearing a black T-shirt, black jeans, and a goatee.”

116

After listening to the evidence and the arguments of counsel, the trial court found
defendant guilty of aggravated battery, aggravated discharge of a firearm, and attempted first
degree murder including the personal discharge of a firearm. However, the trial court found
that the State had failed to prove that the victim was permanently disfigured or disabled. In
finding defendant guilty, the trial court stated that it relied on “the clear evidence,” including
the victim’s identification and testimony, which were corroborated by the surveillance video;

'The stipulation did not provide Officer Ludwig’s first name.
5

No. 1-18-0197
defendant’s identification of himself in a still photo taken from a video of “the actual shooting”;
and defendant’s uncoerced statement.

If 17

In his posttrial motion, defendant raised, among other things, a claim that the trial court
erred by denying his pretrial motion to suppress the photo array and lineup. Defendant did not
argue, in either his October 26,2017, posttrial motion or during the January 2,2018, argument
on the posttrial motion, that the trial court erred by denying his pretrial motion to quash arrest
due to lack of a warrant. On January 2, 2018, the trial court denied the posttrial motion and
merged the other counts into the attempted murder court. The court observed that, for
attempted murder, the sentencing range was 6 to 30 years plus a 25-year firearm enhancement.
After considering factors in aggravation and mitigation, the trial court sentenced defendant to
31 years in IDOC, which the court observed was “the minimum sentence” available.

1f 18

On January 11, 2018, defendant filed a notice of appeal, and this timely appeal
followed.

1|19

ANALYSIS

120

1. Standard of Review

121

On appeal, defendant argues that the trial court erred in denying both of his pretrial
suppression motions.

122

A trial court’s ruling on a defendant’s motion to suppress evidence and quash arrest
usually involves questions of both fact and law. People v. Williams, 2016 IL App (1st) 132615,
132; People v. McCarty, 223 Ill. 2d 109, 148 (2006).

1123

A trial court’s factual findings are given great deference and will not be disturbed on
review unless they are against the manifest weight of the evidence. People v. Holmes, 2017 IL
120407,19; Williams, 2016 IL App (1st) 132615,1 32; People v. Close, 238 Ill. 2d 497, 504
6

‘No. 1-18-0197
(2010). At a hearing on a motion to suppress evidence and quash arrest, the trial court acts as
the fact finder and, as such, is responsible for determining the credibility of the witnesses,
drawing reasonable inferences from the testimony and other evidence, and weighing the
evidence presented. Williams, 2016 IL App (1st) 132615, 1 32.
124

The trial court’s ultimate ruling on the motion is a question of law that we review
de novo. Holmes, 2017 IL 120407,19; Williams, 2016 IL App (1 st) 132615, 1 32; Close, 238
Ill. 2d at 504. Thus, “[a] reviewing court

[is] free to undertake its own assessment of the

facts in relation to the issues and may draw its own conclusions.” People v. Ciborowski, 2016
IL App (1st) 143352, 1 72; see also People v. Pitman, 211 Ill. 2d 502, 512 (2004). De novo
consideration means that a reviewing court performs the same analysis that a trial court would
perform. People v. Stephens, 2017 IL App (1st) 151631,148.
125

In addition, a reviewing court may affirm on any basis found in the record. People v.
Begay, 2018 IL App (1st) 150446,135; People v. Daniel, 2013 IL App (1st) 111876,137
(“we may affirm on any basis appearing in the record, whether or not the trial court relied on
that basis or its reasoning was correct”).

126
127

II. Forfeiture
Defendant claims that he preserved for our review his claims concerning the two
pretrial motions, and the State does not argue otherwise.

128

Generally, to preserve an error for appellate review, a defendant must both object at
trial and in a posttrial motion. People v. Williams, 2013 IL App (1st) 111116,1106 (citing
People v. Piatkowski, 225 Ill. 2d 551, 564 (2007)). As we observed above, defendant did not

7

No. 1-18-0197
raise the warrantless arrest issue in his posttrial motion to the trial court.2 Thus, this issue would
ordinarily be forfeited for our review.
1 29

However, the State does not claim on appeal that defendant forfeited this claim by
failing to raise it in the court below, and “the rules of waiver and forfeiture are also applicable
to the State.” People v. Reed, 2016 IL App (1st) 140498, ^ 13. “The State may forfeit a claim
of forfeiture by failing to raise it.” People v. Jones, 2018 IL App (1st) 151307, ^ 47 (finding
that the State had forfeited a claim of forfeiture by failing to raise it); People v. Bridgeforth,
2017 IL App (1st) 143637, If 46 (“The rules of waiver also apply to the State, and where, as
here, the State fails to argue that defendant has forfeited the issue, it has waived the
forfeiture.”); Reed, 2016 IL App (1st) 140498, Tf 13 (“By failing to timely argue that a
defendant has forfeited an issue, the State waives the issue of forfeiture.”); see also People v.
Whitfield, 228 Ill. 2d 502, 509 (2007) (the supreme court declined to consider the State’s
forfeiture argument when it was not included in the State’s petition for leave to appeal). Thus,
we find that the State has forfeited any claim of forfeiture with respect to the claims that
defendant now raises on appeal. III. S. Ct. R. 341(h)(7) (eff. May 25,2018) (“Points not argued
are forfeited and shall not be raised *** on petition for rehearing.”).

If 30
131

III. Photo Array and Lineup
Defendant’s first claim is that the trial court erred by denying his motion to suppress
the physical lineup and the second photo array on the ground that they were unduly suggestive.

132

“Criminal defendants have a due process right to be free from identification procedures
that are unnecessarily suggestive and conducive to irreparable mistaken identification.”

2In his brief to this court, defendant cites only his pretrial motion and the pretrial argument on the
motion in support of his claim that this issue was preserved for our review. He does not cite his posttrial
motion.
8

No. 1-18-0197
(Internal quotation marks omitted.) People v. Jones, 2017 IL App (1st) 143766, f 27; see also
U.S. Const., amend XIV (due process clause). To suppress an identification, a trial court must
find both “(1) that the confrontation was unduly suggestive, and (2) that the identification was
not independently reliable.” People v. Lacy, 407 Ill. App. 3d 442,459 (2011).

1f33

Usually, a ruling on a motion to suppress an identification involves a two-part inquiry.
People v. Rodriguez, 387 Ill. App. 3d 812, 829 (2008). First, the defendant has the burden of
proving that the pretrial identification was so unnecessarily suggestive and conducive to
irreparable misidentification that he was denied due process of law. Rodriguez, 387 Ill. App.
3d at 829; see also People v. Brooks, 187 Ill. 2d 91, 126 (1999); People v. Tyler, 2015 IL App
(1st) 123470, If 236. Second, if the defendant establishes that the identification was unduly
suggestive, then the burden of proof switches to the State to make “a clear and convincing
showing, based on the totality of the surrounding circumstances, that ‘the witness is identifying
the defendant solely on the basis of his memory of events at the time of the crime.’ ” People v.
McTush, 81 Ill. 2d 513, 520 (1980) (quoting Manson v. Brathwaite, 432 U.S. 98, 122 (1977)
(Marshall, J., dissenting, joined by Brennan, J.)); see also Rodriguez, 387 Ill. App. 3d at 829.
In other words, the State must then show that the identification is “ ‘independently reliable.

9 91

Rodriguez, 387 Ill. App. 3d at 829 (quoting People v. Ramos, 339 Ill. App. 3d 891,897 (2003)).

H 34

Normally, to assess whether an identification is independently reliable, Illinois courts
consider the five factors set forth in the United States Supreme Court case of Neil v. Biggers,
409 U.S. 188, 199-200 (1972): (1) the witness’s opportunity to view the defendant during the
offense, (2) the witness’s degree of attention at the time of the offense, (3) the accuracy of any
prior description by the witness, (4) the witness’s level of certainty at the identification, and
(5) the length of time between the crime and the identification. People v. Colon, 2018 IL App

9

No. 1-18-0197
(1st) 160120, f 54; People v. Green, 2017 IL App (1st) 152513,

108. A court takes all five

factors into consideration, as well as the circumstances. Colon, 2018 IL App (1st) 160120,
U 54; Biggers, 409 U.S. at 198-200.

135

Defendant claims that the photo array was unduly suggestive because (I) it had five
photos instead of six, (2) none of the five resembled the description initially provided by the
victim, (3) defendant’s photo occupied “a central position,” (4) his photo had a blue
background, (5) his photo was cropped higher on his body, thus obscuring his full body, (6) he
was the only person wearing “a graphic t-shirt,” and (7) his photo was “zoomed in on to a
greater degree.”

1|36

For the following reasons, we do not find these claims persuasive. First, as defendant
acknowledges, there was no law at the time requiring six photos in an array. Effective January
1,2015, section 107A-2(f) of the Code of Criminal Procedure of 1963 provided that “[a]t least
5 fillers shall be included in a photo lineup, in addition to the suspected perpetrator.” 725 ILCS
5/107A-2(f)(3)(C) (West 2016). However, this statute did not invalidate prior photo arrays with
fewer fillers, and defendant does not argue that it did.3 People v. Moore, 2015 IL App (1st)
141451,

21 (“the newly enacted section that [the defendant] relies on became effective on

January 1, 2015, and does not govern the lineup proceedings in his case”). Second, the fillers
were chosen to resemble defendant, and they do. Third, two of the photos occupy a central
position. The array had three photos in the first row with defendant’s photo in the center, and
only two photos in the bottom row. In the bottom row, one photo is on the left, and the second

defendant’s appellate brief acknowledges “it is true enough that this statute was still proceeding
through the legislative process at the time of these identifications.”
10

No. 1-18-0197
photo is in the center, directly under defendant’s photo. Thus, there were two photos occupying
a central position.

137

Fourth, at trial, the yictim was asked on cross-examination what the differences were
among the photos, and he replied: “they have different colors.” When asked how “the picture
that you marked” was “framed differently,” he responded: “that one’s blue.” In the photo array,
the background color of defendant’s photo was a neutral blue-grey. The backgrounds of all the
photos were in neutral, institutional colors, such as beige and grey, and each one was slightly
different. Thus, the background color of defendant’s photo is not unduly suggestive. Fifth, the
full body is not depicted in any of the photos. All the photos are cropped to show only the head
and a portion of the shoulders and chest. While defendant’s photo displays slightly less of his
body than the others, it is not particularly distinctive on this basis.

If 38

Sixth, defendant is not the only person in a graphic t-shirt. A graphic T-shirt is a T-shirt
bearing a design, image, or lettering on it. What Is a Graphic T-shirt?, Quora.com,
https://quora.com (last visited Mar. 25, 2020) [https://perma.cc/JG8N-F6LD]. Defendant is
wearing a white T-shirt with a portion of a drawing visible in the photo. Of the other four men
in the array, two are wearing black T-shirts, and one is in a polo shirt with blue horizontal
stripes. However, the man immediately to the left of defendant is wearing, like defendant, a
white graphic T-shirt. This man’s graphic T-shirt displays the hear-no-evil, see-no-evil, speakno-evil monkeys and states, “every man lives by a code, every man dies by a code.” Thus,
defendant is not the only person in a graphic T-shirt, he is not in the most distinctive shirt, and
he is not in a black T-shirt, which the victim described the shooter as wearing. Seventh,
defendant’s face appears somewhat larger than the other faces, as though the camera was
slightly closer to defendant when the photo was taken. However, the difference is not

11

‘No. 1-18-0197
significant, particularly between defendant’s photo and the photo directly under his in the
array.
If 39

For all these reasons, we do not find persuasive defendant’s claims that the photo array
’ was unduly suggestive.

140

Defendant claims that the lineup was unduly suggestive because (1) defendant was the
only person in the photo array who also appeared in the lineup, (2) the lineup was administered
by the same officers who believed they had just identified the shooter, (3) one of the fillers
wore “a white-striped coat with red trimming,” (4) defendant was “the only individual wearing
a distinctive, camouflage hoodie,” (5) defendant is the only person with a water bottle and a
Cheetos bag in front of him, (6) defendant’s shoes had “flapping tongues” without laces, and
(7) defendant does not appear to be wearing a t-shirt under his hoodie.

141

First, “[ljineups are not rendered inadequate

merely because the defendant is the

only individual in the lineup who was also in the photographs. [Citation.] Some element of
suggestiveness *** must still be shown.” People v. Johnson, 149 Ill. 2d 118, 148 (1992).
142

For example, in People v. Gonzalez, 2018IL App(lst) 152242, 96, this court reversed
the defendant’s conviction, with the lead opinion noting that, “[s]ince the police told the
witnesses that they had found ‘the shooter’ and since defendant was the only person in both
the photo array and the lineup, the only person who could have possibly been ‘the shooter,’
according to the police, was defendant, who was the only person to appear in both displays.”

143

However, Gonzalez is distinguishable from the case at bar. In Gonzalez, “[b]oth
eyewitnesses testified at trial that, prior to their initial identification from the photo array, the
police told them (1) that the police had found the shooter and (2) that his photo was in the
photo array.” Gonzalez, 2018 IL App (1st) 152242,|95. This court found that this error by the
12

'No. 1-18-0197
police was “compounded” when the defendant was then the only person to appear in both the
lineup and the photo array. Gonzalez, 2018 IL App (1st) 152242, f 96,

If 44

By contrast, in the case at bar, there was no evidence that the police told the victim that
they had found the shooter. At the pretrial suppression hearing, Detective Teahan was
specifically asked whether he ever told the victim whom to select, during either the photo array
or the lineup, and whether anyone else did so in his presence, and he responded no. At the trial,
the victim testified that he did not recall the conversation during the photo array, and he was
not asked about a conversation with respect to the lineup. Thus, Gonzalez is inapposite, since
there was no evidence in the case at bar that the police informed the victim that the shooter had
been found.

1f 45

Second, although the lineup was administered by the investigating officers, there was
no evidence that they suggested a selection. In addition, the victim refused to make an
identification from the first array that the police had showed him.

If 46

Third, defendant claims that the man in the middle of the lineup is wearing “a whitestriped coat with red trimming,” making it sound like a Santa outfit. Actually, the coat has a
black and white, criss-cross pattern, with red cuffs and collar. While it is more distinctive than
the clothes of the other men, it is not as eye-popping as defendant alleges. Fourth, defendant
claims that he is the only one in “a distinctive, camouflage hoodie.” However, as defendant
notes, the man in the middle has a more distinctive jacket than defendant does. In addition,
four of the five men in the lineup are wearing hoodies. Of the four, one has a grey hoodie, one
has a black hoodie that says “Nike Air”; one has a black hoodie that says “Puma,” and
defendant has a black and grey camouflage hoodie. Thus, defendant’s clothes are not the most
distinctive.

13

No. 1-18-0197
U 47

Fifth, defendant is not the only person in the lineup photo with a water bottle. The man
seated in the second-from-the-left position has a water bottle in his hands. In addition,
Detective Teahan testified at the suppression hearing that the water bottles and snacks were
not present during the identification process and that defendant and others were allowed to
retrieve them later when the photo was taken.

K 48

Sixth, defendant claims that the lineup photo shows that defendant’s shoes have
“flapping tongues on his shoes missing their laces.” The photo shows that four of the men,
including defendant, are wearing black and white shoes and that the fifth man’s shoes are grey.
Laces are not visible on any of the shoes. Seventh, defendant argues that defendant “does not
appear to have a t-shirt on underneath his temporary hoodie

a fact[ ] strongly indicative of

his recent arrest.” However, it is unclear from the photo whether the black material appearing
underneath defendant’s hoodie is a shirt or only the lining of the hoodie itself.
1|49

To the extent that defendant is arguing that certain facts would tip off the viewer as to
which person in the lineup was in custody, Detective Teahan testified at the pretrial suppression
hearing that all the men placed in the lineup were in police custody at the time.

If 50

For all these reasons, we do not find persuasive defendant’s claims that the lineup was
unduly suggestive.

1151

The trial court stated that it looked at both identifications “to see, were there other
factors that focused the attention on the Defendant, *** versus the other individuals depicted,”
and concluded: “I cannot find that the procedure, the process, was unduly suggestive.” We
affirm the trial court’s finding and its denial of defendant’s motion to suppress the photo array
and the lineup.

14

No. 1-18-0197
152

IV. Investigative Alert

153

Next defendant claims that the trial court erred by denying his motion to quash his
warrantless arrest.4

154

Both the Illinois Constitution and the fourth amendment of the United States
Constitution protect citizens from unreasonable searches and seizures by police officers.
Holmes, 2017 IL 120407,1f 25; U.S. Const., amend. IV; III. Const. 1970, art. 1, § 6. Article I,
section 6, of the Illinois Constitution provides, in relevant part: “The people shall have the right
to be secure in their persons, houses, papers and other possessions against unreasonable
searches [and] seizures

. No warrant shall issue without probable cause, supported by

affidavit particularly describing the place to be searched and the persons or things to be seized.”
Ill. Const. 1970, art. I, § 6. Similarly, the fourth amendment of the United States Constitution
provides: “The right of the people to be secure in their persons, houses, papers, and effects,
against unreasonable searches and seizures, shall not be violated, and no Warrants shall issue,
but upon probable cause, supported by Oath or affirmation, and particularly describing the
>
155

place to be searched, and the persons or things to be seized.” U.S. Const., amend. IV.
With respect to article I, section 6, of the Illinois Constitution, the Illinois Supreme
Court has stated: “we follow decisions of the United States Supreme Court regarding searches
and seizures.” Holmes, 2017 IL 120407, ]|25. “[T]he ‘essential purpose’ of the fourth
amendment is to impose a standard of reasonableness upon the exercise of discretion by
government officials,” such as police officers. People v. Jones, 215 III. 2d 261, 269 (2005).

4As the State observes, although the record does not include the transcript of the trial court’s ruling
on this motion, its absence does not adversely affect our review since defendant raises a purely legal issue.
A half-sheet, dated August 16,2016, indicates that defendant’s motion to quash arrest was denied.
15

No. 1-18-0197

No. 1-18-0197

Cite as:

People v. Bahena, 2020 IL App (1st) 180197

Decision Under Review:

Appeal from the Circuit Court of Cook County, No. 13-CR22029; the Hon. Erica L. Reddick, Judge, presiding.

Attorneys
for
Appellant:

Damon M. Cheronis and Ryan J. Levitt, of Law Office of
Damon M. Cheronis, of Chicago, and Alfredo Acosta, of
Acosta Law Group, of Maywood, for appellant.

Attorneys
for
Appellee:

Kimberly M. Foxx, State’s Attorney, of Chicago (Alan J.
Spellberg, Janet C. Mahoney, and Brian A. Levitsky, Assistant
State’s Attorneys, of counsel), for the People.

20

w

o

SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
(217) 782-2035

Sergio Bahena
Reg. No. Y26870
Lawrence Correctional Center
10930 Lawrence Road
Sumner IL 62466

FIRST DISTRICT OFFICE
160 North LaSalle Street, 20th Floor
Chicago, IL 60601-3103
(312) 793-1332
TDD: (312) 793-6185

May 26, 2021
in re:

People State of Illinois, respondent, v. Sergio Bahena, petitioner.
Leave to appeal, Appellate Court, First District.

126062
The Supreme Court today DENIED the Petition for Leave to Appeal in the above
entitled cause.
The mandate of this Court will issue to the Appellate Court on 06/30/2021.

Very truly yours

Clerk of the Supreme Court

\\

))

"t *

Chicago Police Department

Special Order

S04-16

INVESTIGATIVE ALERTS

ISSUE DATE:
RESCINDS:
INDEX CATEGORY:

05 March 2001
EFFECTIVE DATE:
G01-02
Preliminary Investigations_______

06 March 2001

Rescinded on 18 December 2018 by S04-16; 18 December 2018
I.

PURPOSE
This directive
A.

discontinues the use of the term "stop order" and replaces it with the term "investigative alert."

B.

discontinues the use of the Stop Order or Cancellation Request form (CPD-31.961).

C.

defines categories of investigative alert.

D.

F.

introduces the Criminal History Records Information S^stem^Ci----HRIS) Investigative Alert
Application System to be utilized by the Bureau of InvestigativBsServicJs (BIS).
informs members of the availability of investigative alei#?at£^ia%$RI
IS and local Hot Desk name
checks.
1#^ &
delineates responsibilities of BIS and the Identificatoslfeti^r

G.

outlines procedures when processing investigdtiyi^lerts and Temporary Wants.

E.

II.

CHRIS INVESTIGATIVE ALERT APPLICATION
'Stem!_
All requests for investigative alerts are entere^bn^pproved

in CHRIS by sworn BIS personnel. Any BIS
member with a responsibility for follow-u^investigation
may request an investigative alert via the CHRIS
Investigative Alert Application System. 1
^
A.

Members will enter investij^^Jer^quests into CHRIS utilizing the investigative alert application
screen. Each persoriwantedsmustpie entered separately.

B.

Supervisors will a^pfave^pr rejec^nvestigative alert requests in CHRIS.

C.

An investigativeailerfel^ffecfive immediately upon approval and is available to Department members
via CHRIS orjiHo^esf^^me checks.
CHRIS and^GjfOeSto'tiame checks will display investigative alert and pertinent investigative alert

D.

data (i.e., requited data listed in Item ll-F of this directive) whenever a name check is run on an
individual who has an investigative alert on file.
E.

The unit investigative alert file will be audited in accordance with Item lll-A-6 of this directive to ensure
that investigative alerts no longer needed are purged from the Investigative Alerts Application
System.

F.

The following data is required to request an investigative alert:

1.

Offense code

2.

Name of subject (include all known aliases)

3.

IR number

4.

Physical description (sex, height, DOB, etc.)

5.

Last known address

6.

Justification for the investigative alert request

7.

Requesting member's information (name, star number, unit, etc.)

S04-16 Investigative Alerts
© Chicago Police Department, March 2001

Current as of 03 March 2017:1230 hrs
Page 1 of 5

8.
III.

RD number, in ail instances that one has been issued.

RESPONSIBILITIES
A.

Bureau of Investigative Services
Bureau of Investigative Services supervisors will ensure that:
1.

a unit investigative alert file is maintained. The investigative alert file will contain sufficient
information relating to the subject of the alert to allow any member of the investigating unit to
handle the investigation if the requesting member is not available. Copies of all reports,
documents, etc., supporting the investigative alert request and a summary of how the subject
was involved in the crime or incident will also be included in the investigative alert file.

2.

a copy of the subject’s most recent photograph, if available, is attached to a paper copy of the
approved investigative alert request and placed in the unit investigative alert file.

3.

a current list of investigative alerts requested by the unit is maintained.

4.

in the event a juvenile is involved or is alleged to be involved in an offense, every effort is
made to apprehend the juvenile before an investigative alert is requested. This will include
requesting that area Special Victims Section personnej^earch their files for pertinent
information which would assist in the apprehension of tt#fjuve^8e.
Members will follow the precedes

NOTE:

the Department directive

entitled "Processing of Juveniles andrMinors Under Department
Control" when process!no pintenfgatinirjuveniles.
5.

investigative alert requests are updatecUirbanceled as necessary.
NOTE:

6.

7.

Any BIS member^teralj^of sergeant or above is authorized to update or
cancel an investigative alert.

the unit investigative al^rt file i| audited each police period to ensure investigative alert
requests on file are^c^hceled when the subject of the alert has been apprehended or the
investigative alerbisno longehfi'eeded.
Temporary Want Inf^reSiests are telephoned or faxed to the Field Inquiry Section - Central
Warrant U^floj^ entered into the LEADS and/or NCIC computer systems.

8.
B.

the HelR D^^ is^cbntacted if there is a problem with the CHRIS Investigative Alert
Application SystejC

Identifications

m

If a fingerprint verification of an arrestee's identity indicates that an investigative alert is in effect, the
Identification Section will immediately make notifications to both the district of detention and the unit
which originated the investigative alert.
NOTE:

The Identification Section will notify the Cook County Fugitive Unit upon verification
that the arrestee is a participant (inmate or offender) in an electronic home
monitoring detention program supervised by the Illinois Department of Corrections,
probation supervisory authority, sheriff, or any other office charged with authorizing
and supervising home detention.

S04-16 Investigative Alerts
©Chicago Police Department, March 2001

Current as of 03 March 2017:1230 hrs
Page 2 of 5

IV.

PROCESSING INVESTIGATIVE ALERTS AND TEMPORARY WANTS
A.

Field Officers

1.

Officers who run name checks on individuals who have an Investigative Alert / Probable
Cause to Arrest on file will:

a

take the subject into custody if not already in custody.
process the arrestee in accordance with the procedures outlined in the Department
directive entitled "Processing Persons Under Department Control’’ Indicate on the
Arrest Report (CPD-11.420) that the arrestee is the subject of an Investigative Alert /
Probable Cause to Arrest.

c.

notify the desk sergeant of the incident.

d.

notify the requesting BIS member's unit that the subject is in custody and indicate on
the Arrest Report the name and star number of the investigating member notified.
NOTE:

2.

If the investigative alert is for an arrestee who is a participant in an
electronic home monitoring detention program, the officer will notify
the Identification Section.

Officers who run name checks on individuals who hpve ahylnvestlgative Alert / No Probable
Cause to Arrest on file are reminded that IF N^OJHE^CRIME WAS COMMITTED, AN
ARREST IS NOT AUTHORIZED. Officers will:
inform the individual that a BIS in^^^thjp member seeks to interview the individual

a.

about a specific police matter^arickrequept that the subject voluntarily accompany
the officer(s) to the district statibn t&tepeak with the investigating officer so that the
matter may be resolved.
v
b.

if the individual consent^th^officer will assist the individual to the district station
and:
~\
j
{

d)

notjy^heldesk sygeant of the incident.

(2)
-3*
<3?

member’s unit indicating that the subject of the
inve^igatjve alert is at the district station voluntarily and has consented to
speakjvyith the investigating member.

m ^complete an Information Report (CPD-11.461) documenting the incident,

^jjjpjde the pertinent investigative alert data and indicate that the subject
^voluntarily accompanied the officer to the district station.

%

forward a copy of the Information Report to the requesting BIS member's
unit.
(5)
c.

forward the original Information Report to the Office of the Assistant
Superintendent, Operations.

if the individual will not voluntarily accompany the officer(s) to the district station:

(D

complete an Information Report documenting the incident and include the
pertinent data obtained from the investigative alert.
NOTE:

S04-16 Investigative Alerts
© Chicago Police Department, March 2001

IF NO OTHER CRIME WAS COMMITTED, AN ARREST IS
NOT AUTHORIZED.

Current as of 03 March 2017:1230 hrs
Page 3 of 5

/

(2)

notify the desk sergeant of the incident.
NOTE:

d.

DO NOT DETAIN SUCH PERSONS IN ORDER TO MAKE
NOTIFICATIONS.

(3)

notify the requesting member's unit that the subject was located.

(4)

forward a copy of the Information Report to the BIS requesting member's
unit.

(5)

forward the original Information Report to the Office of the Assistant
Superintendent, Operations.

if the subject is in custody for some other offense and a name check reveals
Investigative Alert / No Probable Cause to Arrest, the officer(s) will:

(1)

notify the requesting BIS member's unit that the subject is in custody.
NOTE:

It is not necessary to complete an Information Report if the
subject has been arrested for some other offense and a
name check reveals Investigative Alert / No Probable Cause
to Arrest.
'*

€

(2)

document the Investigative AlefT / No P?otfable Cause to Arrest and the
name and star number of the ihyejstigatipg member notified on the Arrest
Report.
■3

3.

Officers who run name checks on individuals wholiave a Temporary Want on file will:
a.

take the wanted person intgcustody Ifilfiot already in custody.

b.

process the arrestee in^cco^ricirwith the procedures outlined in the Department
directive entitled 'Proce&ingfeersons Under Department Control."
contact the Fieli^Tnquiryjj Section - "
Central Warrant Unit for direction on how to
proceed withthe^em po r|£ry Want arrest.

c.
d.

B.

ensure th|tegi^th§^arrant information or the basis for probable cause has been
articulatedwfhejarrest report as soon as that information is available and prior to
thejjarrestee being sent to court.

Watch Commanders

rs

If a persorKincustoj^ysMhe subject of an investigative alert or Temporary Want, watch commanders
will ensure tnatr

1.

X

the investigative alert is investigated before an arrestee is let to bail.
NOTE:

Whenever the detention of a person in Department custody would result in
the subject being held more than 48 hours from the time of arrest and the
subject was arrested without a warrant and the approval of charges has not
occurred, the subject must be either released without charging or sent
before the appropriate court for a determination of probable cause.
Members will refer to the Department directive entitled "Processing
Persons Under Department Control" for further guidance.

2.

the requesting BIS member's unit is notified.

3.

the requesting BIS unit responds or notifies the district of detention if the investigative alert is
no longer in effect.

4.

the Identification Section is notified if the arrestee is a participant in an electronic home
monitoring detention program.

S04-16 Investigative Alerts
© Chicago Police Department, March 2001

Current as of 03 March 2017:1230 hrs
Page 4 of 5

5.
C.

the Field Inquiry Section - Central Warrant Unit is contacted for directions on procedures to
be followed whenever a Temporary Want arrest is made.

Bureau of Investigative Services
Bureau of Investigative Services sworn members will:

D.

1.

respond to the district station immediately upon notification that the subject of an investigative
alert is in custody or at the district station on a voluntary basis (if the individual is the subject
of an Investigative Alert / No Probable Cause to Arrest).

2.

conduct follow-up investigations relative to information received from investigative alert
Information Reports.

3.

ensure that a supervisor is notified in the event an investigative alert is to be updated or
canceled (i.e., additional information is available, a warrant has been served and the
investigative alert is no longer necessary, complainant/witness is no longer available, etc.).

Field Inquiry Section - Central Warrant Unit
When processing Temporary Wants, the Central Warrant Unit will:

1.

enter Temporary Want requests into the LEADS and/or J-jSIB^st ems.

2.
3.

include any additional information and all known aliases^.
place a copy of the Temporary Want request intJ^e&warrlttf^le after entry has been made

4.

into the systems.
include a list of active Temporary Wants jj^fleT^Mte^NCIC or Hot Desk systems within the
weekly listing of active warrants providednhe Detective Division

%.

JO**
0
\
|

£

Terry G. Hillard
Superintendent of Police

00-113 ZMM(PMD)

S04-16 Investigative Alerts
©Chicago Police Department, March 2001

Current as of 03 March 2017:1230 hrs
Page 5 of 5

STATE OF ILLINOIS

)
)

county of

Lawrence
AFFIDAVIT

a

i vWai 0

QQl jPVQ~S'& do hereby declare and affirm that the following information
within thi&'hffidavit is true and correct in substance and in facts.
PA^crlsprl rlt \q r\!K
^c-Vincac! -1-0 44^ l)-s ^(trrfTrn^c^^is^dL Jt
AA\g
j\ V*3 -4vf„
rn.j/

r*

W/

n
MSP-4ftLpa/'iltK^l£)hn Clhrr-f/vk/ ft-- >X Vw^fi 4-yft
A fA&^imOhn 44ACi li'kj
Y)ryy\ t
X lii^l hi, - ~T(ar/sP-eY, a/i AijV-ffl njnni 1/^.^r!o mlii/v rp>r (vOV\£r-£- 4-7.3 .~ntf
p^J-^XiAvn
\<^4‘ ('ftCCVr

PiU

A-f

i'Pa

f’if/Ci
i tS idYA

hn <

All

a to

V^p

Sjr/fidiO j U>AmI/7 /4-

f: a Ca •£,{/ hf£r*6*
Y)p, pr<<iioi-p. Ay'sC 41ug: rJv^rk 4-?^ |/y4< irr\# i y\
_____________________bL
S&Llpfo&fpJ"T-V
4a
i-t- th hWjs
fXk 5vi/vJ AiA' Ao rr\J . Z&n escnor £dc
iLa
“-9
"T- nv*;/
A4UU
i 2\ynj

Pursuant to 28 USC 1746,18 USC 1621 or 735ILCS 5/1-109,1 declare, under penalty of perjury that
Everything contained herein is true and accurate to the best of my knowledge and belief, I do declare
and affirm that the matter at hand is not taken either frivolously or maliciously and that I believe the
foregoing matter is taken in good faith.
Signed on this \ %

20JJ,

day of

$Mjm

sJnfL
Affiant

